WAIVER

Supreme Court of the United States

No. 19-455
Arris International Limited v. ChanBond, LLC, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

K There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

ChanBond, LLC

 

® lIamamember of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature

 

Date; October 31, 2019

(Type or print) Name__Andrea Pacelli
® Mr. O Ms. O Mrs. O Miss

Firm_Mishcon de Reya New York LLP
Address _156 Fifth Avenue, Suite 904
City & State__New York, NY Zip 10010

Phone _212-612-3267 Email andrea.pacelli@mishcon.com

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Donald J. English Noel J. Francisco
Ce: Duane Morris LLP Solicitor General of the United States
505 9th Street, N.W., Suite 1000 Room 5616

United States Department of Justice

Washington, DC 20004 950 Pi Ivania A\ NW
DuEnolish is. ennsylvania Avenue, N.
nglish@duanemorris.com Washington, DC 20530-0001

ill SupremeCtBriefs@USDOJ.gov

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
